              U.S. Department of the Interior
                  Office of Inspector General

                                    ADVISORY LETTER


         Department of the Interior Responses to
   Review Guide for Planning and Assessment Activities
    for Protecting Critical Non-Cyber Infrastructures




No. 2002-I-0012                       DECEMBER 2001
                                                                                                   H-IN-OSS-003-01 R

                             United States Department of the Interior

                                                  Office of Inspector General
                                                           Washington, D.C. 20240




                                                                                                       December 21, 2001


                                                 Advisory Letter
Memorandum

To:           Assistant Secretary for Policy, Management and Budget

From:         Elaine T. Weistock
              Director, Quality Assurance and Audit Followup

Subject:      Advisory Letter on Department of the Interior Responses to Review Guide for Planning
              and Assessment Activities for Protecting Critical Non-Cyber Infrastructures
              (No. 2002-I-0012)

As requested by the President’s Council on Integrity and Efficiency (PCIE), we completed the
PCIE’s review guide, which was designed to obtain information concerning the critical physical
infrastructure and planning processes used by the Department of the Interior (DOI). We conducted
the review as part of a Governmentwide four-phase PCIE evaluation of Federal agency
implementation of Presidential Decision Directive 63 (PDD-63). The Directive called for a
national effort to ensure the security of the Nation’s critical physical and cyber-based
infrastructures.1 The four phases of the review include the following:

      # Agency planning and assessment activities for protecting critical cyber-based
        infrastructures (Phase I).
      # Agency implementation activities for protecting cyber-based infrastructures (Phase 2).
      # Agency planning and assessment activities for protecting critical non-cyber infrastructures
        (Phase 3).
      # Agency implementation activities for protecting critical non-cyber infrastructures
        (Phase 4).

We also evaluated DOI’s implementation of the two recommendations contained in our Phase 1
advisory letter (No. 00-I-704), which was issued in September 2000. The results of the review
will be sent to the PCIE working group for inclusion in a Governmentwide report concerning the
security of Federal Critical Infrastructures.


1
 Critical infrastructures are those physical and cyber-based systems essential to the minimum operations of the economy and
Government, including, but not limited to, telecommunications, energy, banking and finance, transportation, and water systems and
emergency services, both Governmental and private.
Background
Advances in information technology have resulted in increasing the automation and interlinking of
physical and cyber-based infrastructures and have created new vulnerabilities to intentional or
unintentional infrastructure attacks from human error, weather, and equipment failure that could
significantly harm the Nation’s economy and military capability.

PDD-63, signed on May 22, 1998, ordered the strengthening of the Nation’s defense against
terrorist acts, weapons of mass destruction, and assaults on critical infrastructures that would
diminish the ability of the Government to protect the national security and ensure general public
health and safety; the state and local governments to maintain order and deliver minimum essential
public services; and the private sector to ensure the orderly functioning of the economy and the
delivery of essential telecommunications, energy, financial, and transportation services. PDD-63
directs the Government to eliminate any significant vulnerability to both physical and cyber attacks
on its critical infrastructures by May 22, 2003.

DOI’s Critical Infrastructure Protection Plan (CIPP) identified Hoover Dam, Shasta Dam, Grand
Coulee Dam, the Main Interior Building, and the Bureau of Reclamation’s Supervisory Control and
Data Acquisition computer system supporting dam operations as national critical infrastructures.

Results of Review
Based on its responses to the review guide, DOI has identified its critical assets, completed its
initial vulnerability assessments, and resubmitted its CIPP to the Critical Infrastructure Assurance
Office for review by an Expert Review Team (ERT). Although PDD-63 did not require DOI to
notify the Office of Inspector General’s (OIG) criminal investigations office of physical
infrastructure attacks (see review step A19.e in Appendix 1), we consider it appropriate for DOI
to notify the OIG when attacks on critical physical infrastructure have occurred. Also, DOI has
taken action to incorporate the ERT’s previously suggested improvements and to implement the
two recommendations contained in our Phase I advisory letter. The two recommendations
pertained to the establishment and implementation of a requirement to document the periodic threat
review process and the resubmission of the CIPP to the ERT for approval.

The results of our review of DOI’s critical physical infrastructure protection planning efforts under
Phase 3 and the review steps that were developed by the PCIE working group are detailed in
Appendix 1.

Recommendation
We recommend that DOI’s Critical Infrastructure Assurance Officer (CIAO) establish a policy
requiring that the OIG be notified when attacks on DOI’s critical physical infrastructure assets
occur.




                                                 2
Assistant Secretary for Policy, Management, and Budget Response
and OIG Reply
In an August 14, 2001, response (Appendix 2) to the draft report, the Director, Office of Managing
Risk and Public Safety (DOI’s CIAO), concurred “with the spirit of the recommendation that the
OIG be notified when attacks on DOI’s critical physical infrastructure assets occur.” The
response further stated that the “policy can be effective immediately.” The policy, however, was
not prepared by the date we issued this final report. Based on the response, we consider the
recommendation resolved and we are requesting additional information (Appendix 3).

In accordance with the Departmental Manual (360 DM 5.3), please provide us with your written
response by January 31, 2002, regarding the target date for issuing a policy that requires OIG
notification when attacks occur on DOI’s critical physical infrastructure assets.

The legislation, as amended, creating the OIG, requires semiannual reporting to Congress on all
audit reports issued, actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

This advisory letter will be listed in our semiannual report to the Congress, as required by Section
5(a) of the Inspector General Act (5 U.S.C. app.3).




                                                  3
                                                                                                                    Appendix 1
                                                                                                                   Page 1 of 13

                                                      SCHEDULE OF REVIEW RESULTS

                                                                         Estimated    Estimated Estimate is
                                                                          Date of      Cost of   in Agency
          Review Step                      Yes No N/A     Cause   Effect Resolution   Resolution CIP Budget   Recommendation
A.1 Has agency completed its               X
Critical Infrastructure Protection Plan
(CIPP)?
A.2 If the agency does not plan to                X
complete a CIPP, is it because it is
not a Phase I/II agency subject to
Presidential Decision Directive (PDD)
63 or among the agencies listed in the
Critical Infrastructure Assurance
Officer’s (CIAO) Project Matrix?
A.3 If the answer to question A.2 is              X
yes, then identify the agency’s physical
assets that may be subject to PDD-
63. Does agency management agree
that any of the assets should be
subject to PDD-63?
A.4 For agencies that have prepared        X
a CIPP, did the Critical Infrastructure
Coordination Group sponsor the
required "expert review process" for
the CIPP? If an Expert Review Team
(ERT) review was not performed,
then determine the "cause" and
continue with the remaining steps.




                                                                  4
                                                                                                                                         Appendix 1
                                                                                                                                        Page 2 of 13

                                                                                              Estimated    Estimated Estimate is
                                                                                               Date of      Cost of   in Agency
           Review Step                      Yes No N/A             Cause               Effect Resolution   Resolution CIP Budget   Recommendation
A.5 If the Critical Infrastructure          X
Coordination Group completed the
expert review and found the CIPP
deficient, has the agency taken
adequate remedial action(s)?
A.6 Does the CIPP require the               X
appointment of a CIAO who will have
overall responsibility for protecting the
agency’s critical infrastructure?
A.7 Has the agency appointed a              X
CIAO?
A.8 Does the CIPP require the               X
agency to identify its physical Mission
Essential Infrastructure (MEI)?
A.9 If the answer to question A.8 is            X        DOI does not lease critical
yes, does the identification of assets                   physical assets.
include leased assets from the public
or private sector?
A.10 Does the CIPP identify a               X
milestone for identifying its physical
MEI?
A.11 Does the agency CIPP require           X
an evaluation of new assets to
determine whether they should be
included in its MEI?




                                                                                       5
                                                                                                                 Appendix 1
                                                                                                                Page 3 of 13

                                                                      Estimated    Estimated Estimate is
                                                                       Date of      Cost of   in Agency
          Review Step                     Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
A.12 Does the CIPP require the            X
agency to perform vulnerability
assessments of its physical MEI?
A.13 Does the CIPP require periodic       X
updates of the assessments?
A.14 Does the CIPP identify               X
milestones for completing the
vulnerability assessments?
A.15 Does the CIPP require risk           X
mitigation relative to potential damage
stemming from each vulnerability?
A.16 Does the CIPP provide for            X
periodic testing and re-evaluation of
risk mitigation steps (policies,
procedures, and controls) by agency
management?
A.17 Does the CIPP provide a              X
milestone for taking steps to mitigate
risks?
A.18 Does the CIPP require                X
establishment of an emergency
management program?




                                                               6
                                                                                                                                                Appendix 1
                                                                                                                                               Page 4 of 13

                                                                                               Estimated    Estimated Estimate is
                                                                                                Date of      Cost of   in Agency
          Review Step                      Yes No N/A             Cause                 Effect Resolution   Resolution CIP Budget    Recommendation
A.19.a If the answer to question           X
A.18 is yes, does the CIPP specify
that the emergency management
program include the following:
    Incorporation of indications
    and warnings?
A19.b Incident collection, reporting,      X
and analysis?
A19.c Response and continuity of           X
operation plans?
A19.d A system for responding to           X
significant infrastructure attacks while
the attacks are under way, with the
goal of isolating and minimizing
damage?
A19.e Notification to OIG criminal             X        DOI has existing linkages and                                               Establish a policy requiring
investigators of infrastructure attacks?                close working relationships                                                 that the Office of Inspector
                                                        with Federal, state and local                                               General be notified when
                                                        law enforcement agencies and                                                attacks occur on DOI’s
                                                        intelligence sources.                                                       critical physical
                                                                                                                                    infrastructure assets.


A19.f Criteria for determining if an       X
incident should be reported to the
National Infrastructure Protection
Center (NIPC) or Federal Computer
Incident Response Capability
(FedCIRC)?


                                                                                        7
                                                                                                               Appendix 1
                                                                                                              Page 5 of 13

                                                                    Estimated    Estimated Estimate is
                                                                     Date of      Cost of   in Agency
          Review Step                   Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
A19.g Procedures for reporting a        X
computer security- or infrastructure-
related incident to the NIPC?
A.20 Does the CIPP require              X
establishment of a system for quickly
reconstituting minimum required
capabilities following a successful
infrastructure attack?
A.21 Does the CIPP identify a           X
milestone for establishing the
emergency management program?
A.22 Does the CIPP require a            X
review of existing policies and
procedures to determine whether the
agency should revise them to reflect
PDD-63 requirements?
A.23 Does the CIPP identify a           X
milestone for reviewing existing
policies and procedures?




                                                             8
                                                                                                                                              Appendix 1
                                                                                                                                             Page 6 of 13

                                                                                                   Estimated    Estimated Estimate is
                                                                                                    Date of      Cost of   in Agency
           Review Step                      Yes No N/A              Cause                   Effect Resolution   Resolution CIP Budget   Recommendation
A.24 Does the CIPP require the                  X        DOI’s CIPP does not require
agency to incorporate its CIP                            the agency to include CIP
functions into its strategic planning and                functions in its strategic plan.
performance measurement                                  This is because only certain
frameworks?                                              assets of one (the Bureau of
                                                         Reclamation) of the eight
                                                         bureaus and the Main Interior
                                                         Building are considered
                                                         critical infrastructure. These
                                                         assets constitute a small
                                                         portion of DOI’s overall
                                                         infrastructure. DOI’s strategic
                                                         plan concentrates on DOI’s
                                                         major programmatic goals,
                                                         such as protecting the
                                                         environment and preserving
                                                         natural and cultural resources.


A.25 Does the CIPP identify a                   X        See response to question
milestone for incorporating its critical                 A.24.
infrastructure protection functions into
its strategic planning and performance
measurement frameworks?




                                                                                            9
                                                                                                                Appendix 1
                                                                                                               Page 7 of 13

                                                                     Estimated    Estimated Estimate is
                                                                      Date of      Cost of   in Agency
          Review Step                    Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
A.26 Does the CIPP require               X
agencies to identify resource and
organizational requirements for
implementing PDD-63?
A.27 Does the CIPP identify a            X
milestone for identifying resource and
organizational requirements for
implementing PDD-63?
A.28 Does the CIPP require the           X
agency to establish a program to
ensure that it has the personnel and
skills necessary to implement a sound
infrastructure protection program?
A.29 Does the CIPP identify a            X
milestone for establishing a program
that would ensure that the agency has
the personnel and skills necessary to
implement a sound infrastructure
protection program?
A.30 Does the CIPP require the           X
agency to establish effective CIP
coordination with other applicable
entities (foreign, state, and local
governments and industry)?




                                                              10
                                                                                                                  Appendix 1
                                                                                                                 Page 8 of 13

                                                                       Estimated    Estimated Estimate is
                                                                        Date of      Cost of   in Agency
           Review Step                     Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
A.31 Does the CIPP identify a              X
milestone for establishing effective
CIP coordination with other
applicable entities (foreign, state, and
local governments and industry)?
A.32 Do the agency’s plans for the         X
continuous periodic review of its
threat environment appear adequate,
and is the agency complying with
these plans?

Identification of Critical Assets

B.1 Has the agency identified its          X
physical (non-cyber-based) MEI?
B.1a Does the physical MEI include         X
staff and management, such as
security management and executives,
needed to plan, organize, acquire,
deliver, support, and monitor mission-
related services, information systems,
and facilities)?
B.1.b Does the physical MEI include        X
facilities (all facilities required to
support the core processes, including
these support information technology
resources)?




                                                                11
                                                                                                                                           Appendix 1
                                                                                                                                          Page 9 of 13

                                                                                                Estimated    Estimated Estimate is
                                                                                                 Date of      Cost of   in Agency
           Review Step                      Yes No N/A             Cause                 Effect Resolution   Resolution CIP Budget   Recommendation
B.2.a Evaluate the adequacy of the          X
agency’s’ efforts to identify MEI and
MEI interdependencies with
applicable Federal agencies, state and
local government activities, and/or
industry. Has the agency identified
critical, physical assets consistent with
the criteria in footnote 1 of the Phase
III review guide?
B.2.b Has the agency identified             X
interdependencies for its critical
physical assets?
B.2.c Did the agency use the CIAO               X        The critical physical
infrastructure asset evaluation survey                   infrastructure was identified
to identify its MEI assets?                              and CIPP was prepared in
                                                         June 1999, which was before
                                                         the effective date of the
                                                         criteria (January 2000).




                                                                                         12
                                                                                                                                          Appendix 1
                                                                                                                                        Page 10 of 13

                                                                                               Estimated    Estimated Estimate is
                                                                                                Date of      Cost of   in Agency
          Review Step                     Yes No N/A             Cause                  Effect Resolution   Resolution CIP Budget   Recommendation
B.2.d Did the asset identification            X        The asset identification
process include a determination of the                 process included a
estimated replacement cost, planned                    determination of the potential
life cycle, and potential impact to the                impact of assets that are
agency if the asset is rendered                        rendered unusable. DOI
unusable?                                              officials said, however, that
                                                       they did not consider it
                                                       necessary to estimate the
                                                       replacement cost and planned
                                                       life cycle of assets that were
                                                       rendered unusable.
B.2.e Has the agency established          X
milestones for identifying and
reviewing its MEI?
B.2.f Is the agency meeting its           X
milestones?

Vulnerability Assessments

C.1 Has the agency performed and          X
documented an initial vulnerability
assessment and developed
remediation plans for its MEI?




                                                                                        13
                                                                                                                   Appendix 1
                                                                                                                 Page 11 of 13

                                                                        Estimated    Estimated Estimate is
                                                                         Date of      Cost of   in Agency
           Review Step                      Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
C.2 Did the vulnerability assessments       X
address the threat type and magnitude
of the threat, the source of the threats,
existing protection measures, the
probability of occurrence, damage
that could result from a successful
attack, and the likelihood of success if
such an attack occurred?
C.3 Did the remediation plans               X
address the vulnerabilities found
during the assessment?
C.4 Has the agency determined the           X
level of protection currently in place
for its MEI?
C.5 Has the agency identified the           X
actions that must be taken before it
can achieve a reasonable level of
protection for its MEI?
C.6 If your answer to number 5 is           X
yes, then has the agency developed a
related implementation plan and
mechanism to monitor such
implementation?




                                                                 14
                                                                                                               Appendix 1
                                                                                                             Page 12 of 13

                                                                    Estimated    Estimated Estimate is
                                                                     Date of      Cost of   in Agency
          Review Step                   Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
C.7 Has the agency delegated            X
responsibility for vulnerability
assessments to the agency CIO or
CIAO?
C.8 Has the agency adopted a multi-     X
year funding plan that addresses the
identified threats?
C.9 Has the agency reflected the cost   X
of implementing a multi-year
vulnerability remediation plan in its
budget submissions to OMB?
C.10 Did the vulnerability              X
assessments query national threat
guidance for international, domestic,
and state-sponsored
terrorism/information warfare (e.g.,
from the DoD, FBI, NSA, and other
Federal and state agencies)?
C.11 Has the agency prioritized the     X
threats according to their relative
importance?




                                                             15
                                                                                                                   Appendix 1
                                                                                                                 Page 13 of 13

                                                                        Estimated    Estimated Estimate is
                                                                         Date of      Cost of   in Agency
           Review Step                      Yes No N/A   Cause   Effect Resolution   Resolution CIP Budget   Recommendation
C.12 Has the agency assessed the            X
vulnerability of its MEI to failures that
could result from interdependencies
with applicable Federal agency and
state and local government activities
and private sector providers of
telecommunications, electrical power,
and other infrastructure services?
C.13 Do the processes used to               X
identify and reflect new threats to the
agency’s MEI appear adequate?
C.14 Do the results of the                  X
vulnerability assessments necessitate
revisions to agency policies that
govern the management and
protection of agency MEI?
C.15 Did the results of the ERT             X
coincide with answers derived from
questions A.1 through C.14?




                                                                 16
     APPENDIX 2




17
                                                                         APPENDIX 3


       STATUS OF ADVISORY LETTER RECOMMENDATION


Recommendation           Status                        Action Required


      1          Management concurs;       Provide a target date for issuance of a
                 additional information    policy on notifying OIG when attacks
                 needed.                   occur on DOI’s critical physical
                                           infrastructure assets




                                      18
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and management
of the Department of the Interior (DOI). We accomplish our
mission in part by objectively and independently assessing major
issues and risks that directly impact, or could impact, the DOI’s
ability to carry out its programs and operations and by timely
advising the Secretary, bureau officials, and the Congress of
actions that should be taken to correct any problems or
deficiencies. In that respect, the value of our services is linked to
identifying and focusing on the most important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone - Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You can
report allegations to us by:

Mail:          U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

Phone:         24-Hour Toll Free             800-424-5081

               Washington Metro Area         202-208-5300
               Hearing Impaired              202-208-2420
               Fax                           202-208-6023

               Caribbean Region              703-487-8058
               Northern Pacific Region       671-647-6060

Internet:      www.oig.doi.gov/hotline_form.html
